                                                                        memorandum
Regional Inspector General
        Pretoria




                             October 19, 2000

                             Director, USAID/Malawi, Kiertisak Toh

                             Regional Inspector General/Pretoria, Joseph Farinella

                                    Audit of USAID/Malawi’s Performance Monitoring for
                             Indicators Appearing in the Fiscal Year 2002 Results Review and
                             Resource Request Report, Report Number 4-612-01-001-P


         This is the final report on the subject audit. We received your comments to our draft report and
         included those comments as Appendix II to this report.

         This report contains four recommendations on which management decisions have been reached.
          Please notify M/MPI when final action is complete. I appreciate the cooperation and courtesies
         extended to my staff during the audit.

         Background

         The Government Performance and Results Act of 1993 (Results Act) was passed to improve
         federal program effectiveness and public accountability by promoting a new focus on results,
         service quality, and customer satisfaction. The Results Act should also improve federal managers’
         service delivery by requiring that they plan for meeting program objectives and by providing them
         with information about program results and service quality. Congressional decision making should
         also be improved by receipt of more objective information on the status of efforts to achieve
         statutory objectives and on the relative effectiveness and efficiency of federal programs and
         spending.

         In 1995, the U.S. Agency for International Development (USAID) developed a new reporting
         system that included the Results Review and Resource Request (R4) report. This is the most
         significant performance report that the operating units send to their respective bureaus. USAID’s
         Automated Directive System (ADS) requires that the information in the R4s shall be used, as
         appropriate, for internal analyses, responding to external inquiries, and USAID-wide results
         reporting.
USAID’s performance monitoring system is an organized process for systematically monitoring
the progress of a program, process, or activity towards its objectives over time. USAID’s
performance monitoring systems consist of: (1) establishing performance indicators, (2) preparing
performance monitoring plans, (3) setting performance baselines, (4) collecting performance data,
and (5) assessing data quality.

As of September 1999, USAID/Malawi had total obligations of $259.1 million for its five strategic
objectives. This audit examined performance data reported in all five of USAID/Malawi’s strategic
objectives for FY 2002.

Audit Objective

This audit is part of a worldwide series of audits that were requested by USAID’s Office of Policy
and Program Coordination (PPC) and are being carried out by USAID’s Office of Inspector
General (OIG). The audit objective and the scope and methodology for this series of audits were
developed in coordination with PPC. The present audit was performed by the OIG’s Regional
Inspector General/Pretoria to answer the following audit objective:

        Did USAID/Malawi monitor performance in accordance with Automated Directive
        System E203.5.5 and other relevant guidance as demonstrated by indicators
        appearing in its Results Review and Resource Request report for Fiscal Year (FY)
        2002?

The audit scope and methodology are described in Appendix I.

Audit Findings

USAID/Malawi generally monitored performance in accordance with Automated Directive System
(ADS) E203.5.5 and other relevant guidance as demonstrated by indicators appearing in its Results
Review and Resource Request (R4) report for FY 2002. However, there were two exceptions
in the five strategic objectives that we examined. These exceptions concerned (1) the completeness
of data in its performance monitoring plan and (2) the absence of formal data quality assessments.

In accordance with USAID guidance and in monitoring the performance of its programs, processes,
and activities towards respective objectives, USAID/Malawi had generally:

§   established the basic controls of a performance monitoring system,

§   established baselines to identify the point used for comparison when measuring progress toward
    specific objectives,

§   assessed data quality, and
                                               2
§   issued its R4 report for Fiscal Year 2002.

In addition to the above, PPC conducted an on-site training workshop for all of the Strategic
Objective Teams on April 3, 2000. The purpose of this workshop (requested by USAID/Malawi)
was to instruct Mission personnel on current USAID guidance and requirements relative to
performance monitoring, assessments and preparation of the Mission’s R4.

However, we found certain exceptions with the performance monitoring system, data quality
assessments, and some indicators. These areas are noted below:

Performance Monitoring Plan
Needs to be Updated and Strengthened

ADS 203, states that performance-monitoring plans shall be prepared for each operating unit’s
strategic plan. Information included in a performance monitoring plan shall enable comparable
performance data to be collected over time, even in the event of staff turnover, and shall clearly
articulate expectations in terms of schedule and responsibility. Specifically, performance monitoring
plans shall provide a detailed definition of the performance indicators that will be tracked; specify
the source, method of collection and schedule of collection for all required data; and assign
responsibility for collection to a specific office, team or individual. In summary, performance-
monitoring plans are one element of a performance monitoring system that functions as a critical tool
for managing and documenting the data collection process.

USAID/Malawi’s performance monitoring plan generally defined the technical elements of the
indicators as required by USAID guidance. The plan also identified the data sources, by entity, to
further ensure consistency. Additional controls included units of measure and the identification of
Mission offices responsible for data collection.

However, the plan did not always meet standards in the areas of indicator definition and data
collection frequency and schedule. (See Appendix III)

(1) Under the standard for “indicator definition,” we found that of the seven indicators reviewed
    three were not precisely defined. For example, under Strategic Objective No. 4 the indicator
    “Increased access to quality and Efficiency of Basic Education Especially for Girls” states, “The
    indicator gives mean scores gained on…” whereas the unit of measure consists of a percentage
    which is intended to measure the change in mean scores. Also, for the indicator under Strategic
    Objective No. 3 which measures the number of villages with drug revolving funds (DRF) and
    DRF volunteers, the definition shown on the performance monitoring plan does not define the
    acronyms used or the fact that the Mission only wants USAID-funded programs. Finally, under
    Strategic Objective No. 2, the definition in the performance monitoring plan was not consistent
    with that shown in the Mission’s R4.



                                                 3
(2) Under the “frequency of data collection” standard, all seven indicators showed either “annual”,
    “every year” or “quarterly” as the frequency for collecting data. However, according to
    Mission officials several indicators are on a fiscal year basis while others are on calendar year.
     This data should be included in the plan since the lack of this information makes it difficult for
    managers to know what schedules were in effect at a given time or what changes may have
    taken place.

In addition, for two of the seven indicators, the office shown as being responsible for data
collection no longer existed, and for three of the indicators, the method for calculating the
specific data point was missing.

The above condition occurred because there was a lack of Mission specific procedures for ensuring
that monitoring plans were prepared and maintained in accordance with USAID guidance. In our
opinion, there was also a general lack of awareness by the Strategic Objective Teams of USAID’s
latest standardized procedures regarding this issue.

Without detailed and adequate performance monitoring plans, USAID/Malawi was without a
critical tool for planning, managing, and documenting data collection. For example,

•   Under the indicator “Villages with drug revolving funds (DRF) and DRF volunteers” (3.3.3),
    the total number of villages and DRF volunteers for 1999 were overstated in the Mission’s
    FY2002 R4 because of an incomplete definition for, or a misunderstanding of, the indicator.


    For the “CHAPS” Center in the Mangochi District, actual results provided to the mission
    included villages and volunteers funded by other donors; 20 of 53 villages and 120 of the 194
    volunteers reported by CHAPS were not funded by USAID. This might have been prevented
    had the definition for the indicator specified only USAID-funded villages and volunteers.

•   Under another indicator (No. 4.1.1), we were unable to obtain satisfactory data behind the
    percentages reported under units of measure for the indicator “learning achievement in reading
    English and numeracy competency for boys and girls at standard 3”. We believe the cause is
    due to the lack of understanding in the definition of the indicator by both the Mission and its
    partners.

Without adequate and complete plans, the Mission had little assurance that it was maintaining the
controls that are essential to the operation of a credible and useful performance-based management
system. Therefore, to correct these deficiencies, we are making the following recommendations.




                                                  4
        Recommendation No. 1: We recommend that USAID/Malawi:

        1.1     correct the two indicators (S.O. 3.3.3 and S.O. 4.1.1) that were
                potentially misleading in its FY 2002 Results Review and Resource
                Request submission to USAID/Washington;

        1.2     update its performance monitoring plan in accordance with current
                USAID guidance and requirements; and

        1.3     review its performance-monitoring plan annually to ensure that it is in
                compliance with the latest USAID guidance, and the results of the review
                are documented.

In addition to the above we also found that:

Data Quality Assessments
Need to be Documented

Results-oriented management decisions require valid, current, and reliable information, and the
benefits of this approach depend substantially on the quality of the performance information. Data
quality assessments provide management with reasonable assurance that data quality meets validity,
timeliness, and reliability standards necessary for sound management decisions. ADS 203 states
that data quality will be assessed as part of the process of establishing performance indicators and
choosing data collection sources and methods. Reassessments will be done as necessary, but at
intervals of no greater than three years. Whenever possible, reasonable standards of statistical
reliability and validity should be applied. Data quality will be assessed as part of the process of
establishing performance indicators, and reassessed as is necessary, but at intervals of no greater
than three years. However, the ADS is silent on a prescribed format for these assessments.

According to Mission officials, informal assessments were done during periodic SO team meetings,
through on-site visits by project officials and, in some cases, through periodic formal evaluations.
 We corroborated the Mission’s assertions by reviewing site visit reports, minutes of SO Team
meetings, and some of the evaluations on file at the Mission. For example,

•   The minutes of an SO2 Mini-Retreat held in December 1997, showed that the team reviewed
    existing strategy, looked at lessons learned and used this information to guide discussions on
    how from lessons learned it might adjust, revise or modify its indicators.

•   At an expanded SO3 quarterly team meeting held on June 30, 1998, the team assessed its
    guidelines for the indicator, “Villages with drug revolving funds (DRF) and DRF volunteers”.
     Also, at another expanded team meeting held in October 1999, the team examined the validity
    of its indicators to date with the purpose of improving them.


                                                5
•   The Mission also provided us with copies of two reports titled, “Evaluation of USAID/Malawi
    Girls Attainment in Basic Education and Literacy (Gable) Program” and “Southern Malawi
    Rural School Snapshots” which addressed some deficiencies in the quality of education in
    Malawi. This information, in turn, led to the establishment of some of the indicators for this SO.


Based on this evidence, we concluded that the Mission had complied with the “basic” requirement
for conducting periodic assessments. Nevertheless, we consider that in order for a data quality
assessment to be in full compliance with USAID guidance, it needs to be formally documented as
such.

Without appropriate documentation to demonstrate what had been done, what the results were,
and what conclusions were made, these assessments become a subjective matter, and management
cannot be sure that such assessment activities were sufficient.

Without formal data quality assessments, USAID/Malawi did not have reasonable assurance that
data quality met validity, timeliness, and reliability standards for results-oriented management, the
lack of which could negatively affect decision making. Therefore, we are making the following
recommendation.


        Recommendation No. 2: We recommend that USAID/Malawi include in its
        performance monitoring plan a schedule detailing the dates “formal” assessments
        were performed, the dates when these assessments are due, and references to the
        appropriate USAID guidance that specifies how these assessment should be
        performed.



Management Comments and Our Evaluation

In its response to our draft audit report, the Mission agreed with the findings and recommendations
contained in the report. In addition, the Mission stated that it had already either initiated or
completed action on the recommendations. Based on this action, a management decision was
reached on Recommendation Nos. 1.1, 1.2, 1.3 & 2 upon issuance of this report. USAID’s Office
of Management Planning and Innovation [M/MPI] should be advised for final action on the
recommendations.

The Mission’s comments are included in their entirety in Appendix II.




                                                 6
                                                                                    APPENDIX I
                                                                                            Page 1 of 2




                               SCOPE AND
                              METHODOLOGY




Scope

We audited USAID/Malawi’s controls over performance monitoring in accordance with generally
accepted government auditing standards. The audit also assessed USAID/Malawi’s internal
controls governing the quality of data reported in its FY 2002 R4. Specifically, the audit addressed
whether: (1) baselines were established, (2) adequate performance monitoring plans were
completed, (3) data quality assessments were done, and (4) data reported in the subject R4
complied with USAID and federal guidance.

The audit examined 7 of the 20 indicators reported in USAID/Malawi’s FY 2002 R4 and included
at least one indicator from each of USAID/Malawi’s 5 strategic objectives. In total, the strategic
objectives had reported unliquidated obligations of $87.1 million as of September 30 1999. We
did not verify the reliability of the Mission’s computer generated data; nor did we project the results
of our test to items that we did not test.

Fieldwork was performed at USAID/Malawi in Lilongwe, Malawi from March 28 through June
1, 2000.


Methodology

We began the fieldwork with a study and evaluation of the Mission’s internal control system as it
related to performance monitoring for its strategic objectives. This included an analysis of Mission
guidance, the procedures followed for developing the performance indicators and procedures for
data collection and reporting. We then analyzed the Mission’s internal control system and
compared our results to the requirements found in USAID and relevant federal guidance. The basic
controls that we tested were whether the Mission:




                                                  7
§   Established indicator baseline data either in the strategic plan or a subsequent Results Review
    and Resource Request;
                                                                                 APPENDIX I
                                                                                       Page 2 of 2



§   Prepared performance monitoring plans that contained a detailed definition of the indicator that
    set forth precisely all technical elements of the indicator statement;

§   Prepared performance monitoring plans that identified all data sources;

§   Prepared performance monitoring plans that described the data collection method in sufficient
    detail to enable consistent use in subsequent years;

§   Prepared performance monitoring plans that specified frequency and schedule of data
    collection;

§   Prepared performance monitoring plans that assigned responsibility for collecting data;

§   Completed an assessment of data quality for the indicators either at the establishment of the
    indicator or at an interval no greater than three years;

§   Reported data that was adequately supported by source documents;

§   Reported baseline data in the R4 that were comparable to the data reported for the indicator
    in subsequent years; and

§   Disclosed known data limitations (if any) in the comments section of the R4 report.

Because the Mission’s performance monitoring control system was generally functioning as
intended, we assessed control risk as medium. We reviewed whether reported results agreed
to source documents using an error threshold of plus or minus five percent.
          APPENDIX II
    Management Comments
                Page 1 of 2




9
      APPENDIX II
Management Comments
            Page 2 of 2
     APPENDIX III


                                                      Summary Schedule
                                               USAID/Malawi’s Performance Monitoring Controls For
                                  Indicators Appearing in the FY 2002 Results Review and Resource Request Report

                                                                                In the Performance Monitoring Plan…                                               In the R4…
                                                 1.            2.          3.            4.             5.            6.               7.             8.       9.            10.
                                                 Baseline      Indicator   Data          Data           Data          Responsibility   Data Quality   Data     Comparable    Data
                      Indicator                  Established   Precisely   Sources       Collection     Collection    Assigned         Assessment     Agrees   Baseline      Limitations
                                                               Defined     Identified    Method         Frequency                      Done           to                     Disclosed
                                                                                         Described      &                                             Source
                                                                                                        Schedule1
Number of profitable agribusiness and
                                                    Yes          Yes         Yes            No            No              Yes             Yes         Yes         Yes           N/A
cooperatives
Volume and value of goods marketed
through agribusiness: (i) inputs; (ii) outputs
                                                    Yes          Yes         Yes           No             No              Yes             Yes         Yes         Yes           Yes
Number of condoms sold to wholesalers and
                                                    Yes          Yes         Yes           Yes            No              Yes             Yes         Yes         Yes           N/A
retailers
Learning achievement in reading English
and numeracy competency for boys and
girls at Standard 3
                                                    Yes          No          Yes            No            No               No             Yes         Yes         Yes           N/A
Villages with drug revolving funds (DRF)
                                                    Yes          No          Yes           Yes            No              Yes             Yes         Yes         Yes           N/A
and DRF volunteers
Occasions on which parliamentary
committees consulted with non-government
and private sector associations
                                                    Yes          Yes         Yes           Yes            No               No             Yes         Yes         Yes            Yes
Adoption of improved soil conservation
                                                    Yes          No          Yes           Yes            No              Yes             Yes         Yes         Yes            Yes
practices




     1 Generally, “annual” was specified, but not whether it referred to calendar, fiscal or some other time frame.
